GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL



                        Recovery Act Report –
 Peace Arch U.S. Port of Entry Redevelopment: Construction Contract
       Review of PBS’s Major Construction and Modernization
           Projects Funded by the American Recovery and
                       Reinvestment Act of 2009
                 Audit Number A090172/P/R/R11007

                           March 4, 2011
Date:            March 4, 2011

Reply to         R. Nicholas Goco
Attn of:         Deputy Assistant Inspector General
                 For Real Property Audits (JA-R)

Subject:         Recovery Act Report – Peace Arch U.S. Port of Entry
                 Redevelopment: Construction Contract
                 Review of PBS’s Major Construction and Modernization Projects Funded by the
                 American Recovery and Reinvestment Act of 2009
                 Audit Number A090172/P/R/R11007

To:              Robert A. Peck
                 Commissioner, Public Buildings Service (P)


As part of our oversight of the General Services Administration’s American Recovery and
Reinvestment Act (Recovery Act) projects, we noted contracting violations related to the Peace
Arch U.S. Port of Entry (Peace Arch) redevelopment project which we believe warrant your
attention. Specifically:

      •   The construction phase services were awarded as an unpriced option and the exercise of
          the construction option violated competition requirements; and
      •   Contract modifications for construction activities were exercised in a manner that
          resembles cost reimbursable contracting.

Construction Contract Award Does Not Meet Competition Requirements

The project’s construction phase services were awarded in a manner that violated the
competition requirements of both the Federal Acquisition Regulation (FAR) and the Competition
in Contracting Act (CICA).

The construction contract for the Peace Arch project was to be awarded as a Construction
Manager as Constructor (CMc) contract with a Guaranteed Maximum Price (GMP). This type of
contract is initially awarded for design phase services 1 at a firm-fixed price with an option for
construction phase services at a GMP that is established at contract award. The GMP acts as a
ceiling price for the actual construction phase services. The proposed GMP should be evaluated
along with the pricing for the design services for the award to be made in accordance with FAR
52.217-5.
1
 Design phase services include activities such as ensuring the design complies with applicable regulations, codes,
and standards as well as ensuring the constructability of the design.


                                                         1
When PBS awarded the contract on March 14, 2007, the design phase services were awarded at a
firm-fixed price of $309,176, but a GMP for the construction option was not established. The
CMc contractor had submitted a GMP of $59,977,248 for the construction option along with its
offer for the design phase services, but PBS did not include it in the award. Instead, the contract
award document noted the award was made with the “intent to negotiate Construction Phase
Services thereafter.”
PBS began construction prior to establishing the project’s GMP and exercising the construction
option. Between August 2007 and December 2008, PBS issued 14 contract modifications,
totaling $66,320,559, to incrementally authorize construction activities. It was not until April 27,
2009, via Modification 15, that PBS established the $91,440,824 GMP and exercised the option
to construct the project.

Since PBS did not establish a GMP for the Peace Arch project at contract award, construction
phase services represent an unpriced option, essentially an agreement to conduct negotiations
with the CMc contractor on a sole-source basis. The exercise of this option without an approved
justification for other than full and open competition 2 violated CICA and FAR competition
requirements. Further, each of the 14 modifications that GSA used to commence construction
activities violated competition requirements since each was issued under the authority of the
initial contract’s unpriced option for construction phase services.
PBS needs to ensure that the CMc with a GMP approach is executed correctly and in compliance
with all laws, regulations, and policies.


Contract for Construction Work Resembles a Reimbursable Contract

The basis for establishing the price of construction phase services was dependent on the selected
CMc contractor’s subcontract bidding process, rather than on competition at the CMc level to
establish a GMP. As a result, the approach deviates from being a firm-fixed price contract and
resembles a cost contract.

The Peace Arch project was intended to be awarded as a firm-fixed price contract for design
phase services, with a GMP for construction phase services. Prior to exercising the construction
option, the parties were to agree to an Estimated Cost of Work under the GMP. However, PBS
did not formally exercise the construction option and agree to a total project price until 20
months after construction commenced. As previously mentioned, 14 contract modifications,
totaling $66,320,559, were issued for early start construction services before the project price
and $91,440,824 GMP were finalized via Modification 15 on April 27, 2009.

To determine price reasonableness for the early start construction modifications and to finalize
the GMP, the contracting officer primarily relied on the CMc contractor’s subcontract bidding
process. The price negotiation memorandum finalizing the project price noted that from August

2
  The General Services Acquisition Manual 536.270 specifies that before an unpriced option can be exercised, the
agency must cite the statutory authority permitting the use of other than full and open competition.



                                                       2
2007 to March 2008, the CMc contractor submitted subcontract buyout packages to PBS. PBS
created a “Competition Analysis” worksheet which listed these subcontract bids, and the
contracting officer conducted “variance analysis” to monitor adherence to the project budget.

For example, on December 21, 2007, Modification PS04 totaling $21,827,227 was issued for
early start construction to shift selected subcontract work to the design phase. Bid packages for
electrical, sheet pilings, earthwork, landscape and mechanical services were included in this
modification. Pricing for these services was based on the result of the subcontract bidding. This
modification awarded the amount of the low bid on three of the bid packages; a value judgment
was made to use other than the low bidder on two bid packages. Additional percentages were
added to Modification PS04 for bonds, insurance, and profit based on the total cost of the work
on the modification.

Similarly, for the determination of the final contract price, the contracting officer relied on the
subcontractor bidding process. The price negotiation memorandum noted the range of high and
low bids for all the subcontractor specialties in the project; this became the basis for negotiation
of the Estimated Cost of Work of $73,868,953. This Estimated Cost of Work, plus general
conditions, bonds, other direct costs, contingency, and profit became the final project price.

This approach deviates from the tenets of a CMc contract that uses the GMP to set a fixed price
ceiling and shifts the financial risk to the CMc contractor. As a result, as the costs climbed from
the proposed GMP of $59,977,248 to $91,440,824, GSA retained the full financial liability. 3
Further, the decision to enter into this work prior to setting the actual GMP reduced the
Government’s negotiating leverage for the final GMP as it assumes the exercise of the
construction option and risked having an incomplete project if Recovery Act funding had not
been provided.

Further, PBS’s decision to fund a majority of the project construction through a series of
modifications with pricing based on subcontract costs represents a cardinal change 4 to the
contract. The solicitation for this project states that the Government will award construction
phase services 5 to the successful offeror through a GMP with fee. Hence, the solicitation plans
on the award of the construction project as a whole through the exercise of the construction
option at a fully negotiated firm-fixed price. In effect, PBS awarded construction work
piecemeal and on a cost basis, instead of as a complete project with a pre-determined GMP for
the construction option.


3
  Some cost increase may have been the result of changes to the project scope. However, the contract file did not
identify or quantify the cost increases resulting from the scope changes.
4
  A "cardinal change" occurs when the Government effects an alteration in the work that effectively requires the
contractor to perform duties materially different from those originally bargained for. While there is no absolute
definition of a cardinal change, the following factors are generally considered when determining whether one has
taken place: (i) whether there is a significant change in the magnitude of work to be performed; (ii) whether the
change is designed to procure a totally different item or drastically alter the quality, character, nature or type of work
contemplated by the original contract; and (iii) whether the cost of the work ordered greatly exceeds the original
contract cost.
5
  Construction phase services are defined as “all work and services, including general conditions, necessary for the
construction of the project described by the plans.”


                                                            3
Additionally, awarding the CMc contract in this manner is contrary to Recovery Act guidance
issued by the Office of Management and Budget. This guidance states, “to the maximum extent
practicable, contracts using Recovery Act funds shall be awarded as fixed price contracts (see
FAR Subpart 16.2) using competitive procedures.”


Recommendations

We recommend that the Commissioner of the Public Buildings Service:

1.     Develop and implement a system of management controls to ensure that contracts using
       the construction manager as constructor methodology meet competition requirements and
       provide adequate incentives for this type of procurement.


We appreciate the support that has been provided throughout this review. If you have any
questions about this memorandum, please contact me at (202) 219-0088.


Sincerely,



R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits (JA-R)




                                              4
                       Recovery Act Report –
Peace Arch U.S. Port of Entry Redevelopment: Construction Contract
      Review of PBS’s Major Construction and Modernization
          Projects Funded by the American Recovery and
                      Reinvestment Act of 2009
                Audit Number A090172/P/R/R11007

                     Management Comments




                               A-1
                                  Recovery Act Report –
             Peace Arch U.S. Port of Entry Redevelopment, Blaine, Washington
                 Review of PBS’s Major Construction and Modernization
                     Projects Funded by the American Recovery and
                                Reinvestment Act of 2009
                           Audit Number A090172/P/R/R11007

                     Background, Objectives, Scope, and Methodology

Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the General
Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund. In accordance
with the Recovery Act, the GSA Public Buildings Service (PBS) is using the funds to convert
federal buildings into High-Performance Green Buildings as well as to construct federal
buildings, courthouses, and land ports of entry. The Recovery Act mandates that $5 billion of
the funds must be obligated by September 30, 2010, and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General (OIG) is conducting oversight of the
projects funded by the Recovery Act.

The work on the Peace Arch project began prior to the passage of the Recovery Act. Site and
design funding of $9,812,000 was provided by Congress in fiscal year 2004, and additional
funding of $46,534,000 for design, construction management, and inspection was provided by
Congress in fiscal year 2006. Further, Congress approved a PBS request to reprogram
$15,706,000 in additional funds to the project in fiscal year 2008. As a result, the project had
received $72,052,000 in funding prior to the Recovery Act.

PBS determined further additional funds would be required to complete this project. After the
Recovery Act was enacted, PBS selected this project as one of the Border Stations and Land
Ports of Entry projects to be constructed using Recovery Act funding. PBS allocated an
additional $26,284,708 to the Peace Arch project to cover escalation costs.

Objectives

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning, awarding,
and administering contracts for major construction and modernization projects in accordance
with prescribed criteria and Recovery Act mandates. The work for this report was performed
while evaluating the award for the construction of the Peace Arch U.S. Port of Entry
Redevelopment, Blaine, Washington.

Scope and Methodology

To accomplish the objective we conducted fieldwork in the Northwest Arctic Region, reviewed
the contract file and other pertinent project documents, met with project staff, and reviewed



                                              B-1
applicable guidance and regulations. The work for this report was performed between February
2010 and August 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards except as noted below. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

The planning for this review is based on the audit plan for oversight of the Recovery Act projects
as well as audit guidance being applied to all Recovery Act projects. A separate audit guide was
not prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls
discussed in the report have been assessed.




                                               B-2
                                  Recovery Act Report –
           Peace Arch U.S. Port of Entry Redevelopment: Construction Contract
                 Review of PBS’s Major Construction and Modernization
                     Projects Funded by the American Recovery and
                                 Reinvestment Act of 2009
                           Audit Number A090172/P/R/R11007

                                      Report Distribution



Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (10P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Special Agent in Charge (JI-10)

Regional Inspector General for Audits (JA-9)

Assistant Inspector General for Investigations (JI)




                                               C-1
